                 FEDERAL LABOR RELATIONS AUTHORITY
                   OFFICE OF THE INSPECTOR GENERAL


SUBJECT: INTERNAL REVIEW OF FLRA=S OCCUPATIONAL SAFETY AND
         HEALTH PROGRAM

METHODOLOGY:

The assessment of FLRA=s compliance with the Occupational Safety and Health Act
(OSHA) (and related Federal safety and health requirements) was conducted in
accordance with Government auditing standards. Preliminary preparation included a
comprehensive review of OSHA, related Federal regulations and requirements (listed
below) and FLRA related policies. Interviews were held with randomly selected
Agency-wide supervisors and employees regarding safety and health issues. An
assessment of internal management controls over safety and health program
administration was also performed.

REFERENCES:

      Executive Order No. 12196

      Title 29 Code of Federal Regulations, Part 1960

      Section 7902, Title 5. U.S. Code

      Occupational Safety and Health Act of l970

      The Rehabilitation Act of l973, as amended

      The Vietnam Era Veterans Readjustment Assistance Act of 1974, as amended

      The Americans with Disabilities Act of l991

      The Pregnancy Discrimination Act

      The Family and Medical Leave Act of l993

      The Mental Health Parity Act

      The Public Health Service Act

      FLRA Drug Free Workplace Plan

      FLRA Instruction 1810, The FLRA Occupational Safety and Health Program

                                          4
      FLRA Draft Instruction 3890, Providing Reasonable Accommodation for
      Individuals with Disabilities

      FLRA Employee Information Bulletin 2003-04, Employee Entitlements and
      Responsibilities under the Federal Employee=s Compensation Act (FECA)
      FLRA - UAE Contract

BACKGROUND:

Congress passed the Occupational Safety and Health Act of l970 (OSHA ) to assure that
every working person (public and private sector) works under safe and healthy
conditions to preserve human resources. Section 19 of this Act specifically charges the
head of each Federal Agency with the responsibility to establish and maintain an
effective safety and health program which is consistent with OSHA=s standards set for
the private sector. Executive Order 12196 specifically identified Federal Agency
requirements and charged the Department of Labor with the responsibility of
developing Federal implementation and evaluating these programs. Detailed
regulations and standards provided by the Department of Labor are listed in Title 29,
The Code of Federal Regulations, Part 1960. The Federal Labor Relations Authority
issued its internal OSHA policy in l991. The Chairman, FLRA is responsible for
maintaining safety and health in the workplace for FLRA employees. The Director,
Administrative Services Division, in the Office of the Executive Director has the
responsibility for administering the FLRA=s Occupational Safety and health Program for
the entire Agency with assistance, when needed, from the Human Resource Division.

INTRODUCTION:

The primary objective of occupational safety and health regulations is to eliminate or, at
least minimize human injury, property and productivity losses in the work environment
caused by harmful incidents. This is accomplished through the administration of
effective management policies and internal controls as well as safety and health
programs and procedures. There are several technological fields which are associated
with safety and health program administration including engineering, physical science,
ergonomics, psychology, industrial hygiene, physiology, sociology as well as other
scientific/technological fields. Current Federal safety and occupational management
requires a continuing approach to assess and create measures to control or eliminate
environmental hazards. The creation of countermeasures for potential accident and/ or
personnel illness related losses as well as supplies, engineering, office maintenance,
budgeting and medical services are equally important. Occupational health specialists
often assist employees with physical, emotional and social difficulties to help them
adjust to working conditions and practices. Annual reviews of the work area is required
and is necessary to determine compliance with Federal standards and identify/eliminate
unsafe and/or unhealthy conditions.




                                            5
OSHA has provided Federal Agencies with standards which provide the baseline for
effective safety and health programs. These standards include:

      1. Management leadership and employee involvement;

      2. Work site analysis;

      3. Hazard prevention and control; and

      4. Safety and health training.

DEPARTMENT OF LABOR OSHA FEDERAL REQUIREMENTS:

The Department of Labor=s Employee Benefits Security Administration is responsible
for administering Federal health plans. The Department of Labor=s regulations and
standards specified in Title 29 of the Code of Federal Regulations (CFR), Part 1960,
define the requirements which Federal Agencies must address to protect their
employees. These are written below and were evaluated by the FLRA Inspector General
as part of this internal review. All Federal agencies are responsible for:

      1. Providing a workplace free from recognized safety and health hazards;

      2. Establishing procedures for responding to workplace emergencies and
      reporting unsafe and unhealthful working conditions;

      3. Acquiring, maintaining, and requiring the use of approved personal protective
      equipment;

      4. Annual inspection of workplace with employee representatives;

      5. Establishing Agency procedures to assure that employees are not subject to
      restraint, interference, coercion, discrimination or reprisal for exercising their
      rights under the safety and health program;

      6. Posting notices of unsafe or unhealthy working conditions found during
      inspections;

      7. Abating hazardous conditions promptly and notifying employees exposed to
      such conditions;

      8. Immediately correcting conditions that involve imminent danger;

      9. Maintaining records of accidents, injuries, illnesses and their causes and post
      annual summaries for the required period of time;



                                            6
      10. Conducting occupational safety and health training for top management,
      supervisors, safety and health program administration, employees and employee
      representatives;

      11. Complying with OSHA occupational safety and health standards and rules;

      12. Developing and implementing site specific safety and health programs
      consistent with OSHA standards and rules;

      13. Displaying posters conspicuously to inform employees of the provisions of
the
      OSH Act, Executive Order 12196, and Agency safety and health program under
      29 CFR 1960; and

      14. Designating an official with significant authority to manage the agencies
      occupational health program.

OSHA has also defined specific requirements for Federal Agencies to protect their
employees. OSHA statutory requirements and standards require Federal agencies to:

      1. Provide employees training on safety and health issues and related hazards;

      2. Provide well-maintained tools and equipment, including appropriate personal
      protective devices;

      3. Provide medical examinations;

      4. Report to OSHA within 8 hours of accidents that result in fatalities or the
      hospitalization of three or more employees;

      5. Keep records of work-related accidents, injuries, illnesses and their causes;

      6. Post OSHA posters (OSHA 3165);

      7. Provide employees access to their medical records and exposure reports;

      8. Do not engage in reprisal actions against employees who exercise their rights
      under the OSHA;

      9. Post OSHA citations and abatement verification notices at or near the
      work site; and

      10. Respond to OSHA survey requests.




                                           7
Federal employees must comply with all agency policies and procedures concerning
safety and health and use personal protective equipment provided by the agency, when
applicable. Employees have the right to report and/or request inspections of unsafe or
unhealthy working conditions to federal officials, including the Secretary of the
Department of Labor. Federal employees also have the right to comment on agency
standards that differ from OSHA standards, participate in their agency=s safety and
health activities and obtain copies of medical and exposure standards.

Preventative safety and health services, human behavior counseling, and health benefits
should be part of all Federal Agency programs. Many causes of death are caused by
personal health behaviors such as driving while intoxicated, smoking, failure to use seat
belts, physical inactivity, dietary factors and high risk sexual practices.

FEDERAL EMPLOYEE ACCESS PREVENTATIVE HEALTH SERVICES:

The Federal Employee Access Preventative Health Services is the largest employee
sponsored health insurance program serving Federal employees and their families. This
program provides a broad range of preventative health services, including screening for
prostate, cervical, colorectal and breast cancer as well as screening for sickle cell anemia,
testing and nutritional counseling.

5.U.S.C. & 7901 defines eight employee health services which Federal Agencies may
offer to employees. These include:

       1. Emergency Response/First Aid

       2. Administration of Treatments and Medications

       3. Physical Examinations

       4. Environmental Health Hazards Appraisals

       5. Health Education

       6. Health Services/Intervention Program

       7. Disease Screening and Immunizations

       8. Physical Fitness Programs and Facilities

Federal Agencies are responsible for determining the best way to provide employee
health programs. The Federal Occupational Health, U.S. Public Health Services
operates occupational health services nation wide. Some Agencies create their own
Health Services exclusively for their employees or share services with other Federal
Agencies. Another option for Federal Agencies is to contract with vendors for health

                                             8
services. Federal Agencies generally choose services that best meet their needs and the
level of services vary. Federal agencies can also:
        1. Distribute health education brochures and pamphlets on preventative health
        topics;

       2. Create and distribute an employee health newsletters;

       3. Create a safety and health web page;

       4. Offer Alunch and learn@ sessions on preventative health issues; and

       5. Conduct health risk surveys.

FLRA-Union of Authority Employees (UAE)

Article XXIII of the FLRA - UAE Agreement pertains to Safety and health. This
agreement requires that the Employer provide and maintain safe working conditions for
employees and take appropriate actions to ensure that building maintenance and
General Services Administration provide a safe and sanitary environment. If the
correction of safety and health problems is not possible, the Employer is required to
notify the UAE and employees. Also, the Employer is required to notify the Union and
appropriate employees of thefts of personnel belongings and security related problems
and give consideration to Union suggestions on the best way to handle the problem.

Executive Order 12564, Drug Free Federal Workplace, September 15, 1986

This executive order requires the Head of each Executive Agency to establish a program
to test for the use of illegal drugs by employees in sensitive positions. The Head of each
Agency also has the authority to determine the extent to which these employees are
tested and the criteria for such testing based on the Agency=s mission, the efficient use of
resources and the danger to public safety and health that could result from the failure of
an employee to discharge his/her duties because of drug usage. The Agency Head is also
authorized to test employees for illegal drug use if there is reasonable suspicion of drug
use as well as any applicant for a position with the Agency. Agencies are required to
refer employees who are found (or and referral for treatment or self identified) to an
Employee Assistance Program for assessment, counseling sand/or rehabilitation.

The Rehabilitation Act of 1973:

This Act required Federal Agencies to provide adequate hiring, placement and
advancement opportunities for individuals with disabilities




                                             9
INTER AGENCY SAFETY AND HEALTH AGREEMENTS:

Interagency Agreement No. AU 40001, Federal Consortium Employee
Assistance Program, August 15, 2001

The FLRA has an interagency agreement with the Department of Health and Human
Services, Federal Occupational Health for providing Employee Assistance Program
(EAP) services to FLRA employees. FLRA employees can obtain EAP services through
self referral, supervisors and/or labor representatives, federal health units and other
referral sources. FLRA employees who have emotional concerns, alcohol, drug or other
personnel problems will be provided up to 6 sessions under this agreement. Those
employees requiring long term or continuous counseling will then be referred by the
EAP to qualified private sector resources. The Agreement states that the EAP will
conduct education programs and provide statistical reports to the FLRA.

InterAgency Agreement between the FLRA with the Department of Defense,
Computer Electronic Accommodation Program

On October 5, 2001, the Federal Labor Relations Authority entered into an Interagency
Agreement with the Department of Defense (DoD) pursuant to the National Defense
Authorization Act, Section 1102, Assistive Technology Accommodations Program. This
agreement allowed the Computer Assistance Program (CAP) to provide the FLRA
assistive technology, devices and services for FLRA employees with disabilities, without
cost, at the request of the Chairman of the Agency. The agreement will remain in effect
based on the availability of appropriated funds. The CAP Technology Evaluation Center
at the Pentagon conducts assessments, demonstrates assistive technology and
accommodations to ensure that people with disabilities have equal access to information
and opportunities.

InterAgency Agreement between the FLRA and the Department of Health
and Human Services

The FLRA formulated Basic Occupational Health Services by interagency agreements
with the U.S. Public Health Service for the FLRA Headquarters and the 7 FLRA OGC
regional offices. The interagency agreements for all of the FLRA components are the
same and provide:

      - onsite acute care for minor illnesses and injuries;
      - individualized health counseling;
      - targeted screening and prevention programs; and
      - limited occupational safety and health consultations.




                                          10
The core services required for interagency agreements for Basic Occupational Health
Center Services (BOHCS) for Federal employees include:

      - Walk-in Care;
      - Administration of ongoing interventions prescribed by the employee=s personal
      health care provider such as:
             -Periodic bed rest
             -Blood pressure monitoring
             -Glucose monitoring
             -Allergen, hormones and medication injections
             -Other treatments as approved;
      -Immunizations for influenza, tetanus/diptheria and pneumococcus. (Other
      immunizations and vaccines can be given under separate charges;

      - Annual basic site visit to Agency to review services being received by the
      Agency in areas of clinical and environmental health, wellness/fitness and the
      Employee Assistance Program;

      - Issuance of report which documents information obtained and
      recommendations. This report is maintained in the Federal Occupational Health
      files and a copy is sent to the serviced Agency;

      - Provide at least 3 health education programs 30 minutes long based on Healthy
      People Initiatives or defined sources of agency specific information;

      - Provide targeted health screening for employees on an ongoing basis. These are
      limited to hypertension, glucose, lipids, vision and computerized health risk
      appraisals. All other screenings such as cancer or tuburculosis, are performed
      only under separate agreements;

      - Counseling and advice to improve health is provided in response to specific
      client concerns and is focused on risk factors;

      - Maintenance of medical records in accordance with the Privacy Act;

      - Referral to private physicians or community health care providers when
      appropriate;

      - Arrangement for ambulance transportation at employee insurance or OWCP
      expense; and

      - Referrals to Employee Assistance Program, as appropriate.




                                          11
Interagency Agreement between the FLRA and Department of Health and
Human Services, U.S. Public Health Service Division of Federal
Occupational Health, May 10, 2001.

This interagency agreement was developed under the authority of the Economy Act to
provide the FLRA with neutral mediation services as part of an alternate dispute
resolution for a workplace dispute to maintain the physical and mental health fitness of
its employees.

Interagency Agreement between the FLRA and Department of Health and
Human Services, Division of Public Health Service=s Employee Counseling
Services Program, February 1, l990.

According to the Director, Human Resources Division this 22 year old interagency
agreement is still in effect and creates the accessibility of the Employee Assistance
Program. The Employee Counseling Services Program has a two fold objective which
includes:

      1. The enhancement of FLRA=s productivity and performance management by
      providing a mechanism for dealing with conduct and employee performance
      related problems, and

      2. Obtaining professional counseling services which are not available to Federal
      agencies so that a resource is provided for an extenuating range of problems
      which may adversely effect job performance and behavior. These problems
      include, emotional, alcohol and drug related, familial, marital, financial, legal and
      other problems.

According to this agreement, supervisors, managers, labor representatives are to be
provided with ongoing information about the range of services available and employees
will receive an orientation on the range of services for the program. Counselors are
required to maintain confidential records and information cannot be released without
the client=s release signature.

Interagency Agreement No. AU4001, Federal Consortium Employee
Assistance Program (6 Session Program)

This interagency agreement establishes the specific services of the Employee Assistance
Program which includes professional counseling (both on site and after hours.) The
Agreement also states that:

      - The EAP will provide supervisors, managers, labor representatives and others
      deemed appropriate by management, ongoing information dealing with the range
      of services that are available through the EAP,



                                           12
      -Training for supervisors, managers, employees, union officials, union
      representatives and human resource employees which will include;
      - procedures and techniques for referring employees to EAP;
      - crisis management;
      - privacy and confidentiality issues; and
      - techniques for intergrating employees back into the work environment.

The EAP will conduct ongoing health promotions and issues dealing with job
performance and hold workshops on related topics such as conflict resolution, balancing
work and family needs, time and stress management, managing employees with
performance problems and sexual harassment.

The EAP also provides counseling services to employees who have experienced
traumatic events. Critical Incident Stress Management will be provided to those who
have experienced threats, actual violence, suicide and/or homicide, natural or terrorist
disasters, severe injuries, deaths, or any other situation that might have psychological,
or media impact.

Federal employees (and family members whose problems are related), who are referred
by supervisors, labor representatives or by self referral, who are affected by emotional,
alcohol, drug or other personal problems will be offered up to six confidential meetings
with EAP counselors.

Other services include quarterly EAP newsletters, promotional material, user
guidebooks, supervisors guidebooks, and confidential counseling records.

MAJOR FEDERAL AGENCY HEALTH PROGRAMS

The following Federal Agencies have also established major programs which are
accessible to all Federal agencies.

     The Department of Labor: The Department of Labor manages the Federal
Occupational Safety and health Program.

      The Office of Personnel Management: The Office of Personal Management
provides guidance, resources and technical assistance on issues related to
employee health and well being. This Agency also provides assistance to Federal
Agencies in establishing Employee Assistance Programs. The Office of Personnel
Management also reports annually to Congress on alcohol and drug abuse
prevention, treatment and rehabilitation programs for Federal employees.

      The Department Health and Human Services: The Department of Health
and Human Services, Office of Disease Prevention and Health Promotion publishes a
Health Observance Calendar and provides information on its website. This Agency also
provides professional consultation and technical assistance to agencies who develop

                                            13
their own Employee Assistance programs and delivers employee assistance services to
Federal agencies through interagency agreements. The Department of Health and
Human Services also provides assistance to Federal agencies on facilitating and
extending programs for the prevention of drug abuse and for treatment and
rehabilitation. It also is available to provide technical assistance to Federal agencies on
drug testing, overall drug program implementation and medical review.

       The Government Printing Office: The Government Printing Office sponsors
an annual Health Fair which is provided by the Occupational Health and Environmental
Service Committee.

       Individual Agencies: All Federal agencies are responsible for developing
safety and health policy for providing the Employee Assistance Program and providing
relevant training. Federal agencies are required to negotiate or consult with unions for
the provisions and services for bargaining unit employees. Senior management is
required to support and endorse the Employee Assistance Program and encourage
employee use of the Program Services by making the services convenient and available.




                                             14
FINDINGS OF FACT:

5 U.S.C.A &7901 authorizes the Head of each agency to establish health service
programs to promote the physical and mental fitness of employees. Section 7904 of this
same order states that Federal organizations are responsible for developing prevention,
treatment and rehabilitation programs and services for Federal civilian employees with
drug or alcohol problems. When feasible, these program services should be extended to
the families of employees who have this problem. The FLRA has implemented both the
OSHA and Drug Free Workplace Plan and has created detailed policy, however the
majority of managers and employees have never seen or been informed of these FLRA
policies.

The FLRA Executive Director is responsible for administering administrative
management programs prescribed by laws, regulations and executive orders. This
includes ensuring FLRA compliance with the Occupational Safety and Health Act as well
as the Drug Free Federal Workplace Act, and other major safety and health laws and
regulations. This responsibility includes ensuring Agency compliance with Federal laws,
and ensuring that managers and employees are kept knowledgeable and aware of
occupational safety and health issues.

The Director, Administrative Service Division (ASD) is authorized to administer the
FLRA=s Safety and Health Programs. The Director, ASD is responsible for investigating
reports of unsafe/unhealthy work conditions, and accidents that result in serious
personal injury or major property damage, ensuring that FLRA maintains sufficient
records to comply with OSHA requirements and providing appropriate safety and health
training for supervisors and employees. The Director, ASD is also responsible for
coordinating with the FLRA EEO Director to ensure a safe working environment and
proper accommodations for persons with disabilities. The Director, ASD is also
responsible for maintaining necessary records, and issuing required information
including an annual report to the Department of Labor, preparing contracts a Safety and
Health Inspector to conduct periodic inspections of the workplaces of the FLRA and
ensuring that all offices have sufficient protective materials. FLRA has previously
minimally complied with these requirements.

The Office of the Inspector General has the authority to investigate restraints,
interference, coercion, discrimination or reprisal for filing a report of an unsafe or
unhealthy working conditions and allegations of fraudulent claims. During FY 2001 and
FY 2002, the Inspector General received two such complaints related to individuals
from a Regional Office who were alleged to be retiring with claimed disabilities which
were false. The FLRA Inspector General investigated, and reported the information to
the Office of General Counsel and Human Resource Division in FY 2000 who both
stated that the Department of Labor Office of Workmen=s Compensation had approved
both claims.




                                          15
The current Chairman FLRA has consistently e-mailed all FLRA employees on safety
and security issues since the September 11, 2001 disaster. The Chairman has also
focused on contemporizing and increasing the Agency=s focus on security and safety
issues.

The FLRA has internal policy on occupational safety and health, FLRA Instruction 1810,
issued in l991. This policy states that the FLRA will provide a comprehensive and
continuous safety and health program. Most FLRA supervisors and employees were
unaware that this instruction was on line on the FLRA website.

In compliance with the Occupational Safety and Health Act, the FLRA issues Fiscal Year
Annual Reports on Occupational Safety and Health to the Department of Labor, OSHA
but has not included required statistics for fatalities and lost time disabilities. FLRA
does discuss its safety and health program initiatives and accomplishments and
significant OSHA initiatives planned for the upcoming year in its report. However, the
FLRA has not addressed its internal assessments of the effectiveness of these programs,
what needs have been defined to enhance employee participation and consultation
which are also requirements. Nor has the FLRA conducted periodic inspections of its
buildings= safety.

The interagency agreement between the FLRA and Department of Health and Human
Services for basic Occupational Health Services requires the same services for FLRA
Headquarters and regional office employees. While basic core services have been
provided to FLRA Headquarters, several activities stated in the interagency agreement
have not been performed by HHS nor pursued by the FLRA. These services include
annual visits to work sites, issuance of an annual report to the Agency and providing
health training at least 3 times a year (30 minutes for each session). The Regional
Offices appear to have more services from HHS than the FLRA Headquarters.

On February 4, 2003, the Human Resource Division issued an Employee Information
Bulletin 2003-04 which deals with employee entitlements and responsibilities under the
Federal Employee=s Compensation Act (FECA). FECA is administered by the
Department of Labor=s Office of Worker=s Compensation Program. The Act provides
monetary compensation, medical care and assistance, vocational rehabilitation and re-
employment rights to Federal employees who suffer from disabling injuries as a result of
employment with the Federal government. Insured employees have specific
responsibilities, including observing all safety rules, in order to qualify for on the job
injury compensation.

On February 6, 2003, the Human Resource Division issued its annual notice regarding a
Drug Free Federal Workplace reminding employees that the use of illegal drugs,
possession or distribution of controlled substances is incompatible with Federal service,
that such action will be dealt with in accordance with legal, and administrative
disciplinary procedures. It also advises employees who may need assistance regarding
drug use information or abuse to contact the Employee Assistance Program (EAP) and

                                           16
states that employees who have drug problems will be given the opportunity for
rehabilitation.

FLRA also has an injury compensation instruction, FLRA Instruction 3861, issued in
l984. This regulation states that FLRA employees will receive prompt medical
treatment and full assistance in claiming just compensation from the Office of Worker=s
Compensation for job related injuries and occupational disease.

FLRA Headquarters posts occupational safety and health information on the bulletin
board in the HQ Lunch Room. What is currently posted is not current but is applicable.

As a result of a request by the General Services Administration, FLRA has developed a
comprehensive Headquarters Occupant Emergency Plan which was updated after the
recent Headquarters move. This Plan is not yet available on the FLRA website. The
plan contains specific information that all FLRA employees should be aware of in case of
emergencies. The Plan includes specific guidance for:

      -Emergency evacuations
      -Fire hazards
      -Medical/First Aid emergencies
      -Natural Disasters (with and without advanced warnings.)
      -Bomb threats
      -Explosions
      -Suspicious packages
      -Hazard material leaks
      -Chemical, biological or external attacks

The Administrative Services Division provides new employees a folder which includes
some safety information such as:1/

      - Working Safely with Video Display Terminals
      - Federal Employee=s Emergency Guide
      - Federal Labor Relations Authority Telephone Directory( contains Bomb Threat
      Information Sheet and Health Units for HQ and Regional Offices.
      -OPM Questions and Answers About Background Investigations
      -Blueprints For Safety

The Plan does not contain a map of the area nor does it specifically state where
employees should go for the various disasters.




1/ Also contains >Do=s and Don=t=s Imprest Fund@ which should be eliminated



                                           17
The FLRA - UAE Agreement, Article XXII addresses safety and health work conditions
and the Employer=s responsibility, to the extent of discretion, to maintain safe working
conditions, and correct safety and health problems for all employees regardless of their
tenure of appointment.

The FLRA employees have not had sufficient training in safety and health initiatives.
During the last two years, the Human Resources Division increased its focus on safety
and health and has issued several memorandums to FLRA employees which pertain to
these issues. Approximately 10 years ago Cardio Pulminary Resitation (CPR) training
was provided and several employees were certified. Such training has not been made
available since then.

The FLRA has a comprehensive instruction on the FLRA=s Drug Free Workplace Plan
but has not maintained full compliance with The Drug Testing Act. Only one individual
has been required to have drug testing over the last decade. This individual was
appropriately tested when his duties involved driving the FLRA HQ vehicle. The FLRA
Drug Free Work Plan requires drug testing of employees in sensitive positions as far
random employee drug testing. Sensitive positions includes individuals serving under
Presidential appointments, The Inspector General, Security Officer and employees
granted access to classified information, motor vehicle operators carrying passengers as
well as other employees identified by the Chairman. FLRA records do not indicate that
drug testing has been performed on any FLRA employees in sensitive positions.

The Drug Testing Act permits a random selection of drug testing for 25% of the Agency=s
population which would be 1 FLRA employee per year. There is no indication that this
has or is being done even though there was an allocation for $200.00 for drug testing in
Fy 2001. The FLRA=s Drug Free Work Plan states that random testing of employees in
sensitive positions are the designated testing positions. The Plan also provides
requirements for counseling employees who are drug users and requires the referral of
these employees to the Employee Assistance Program. The FLRA=s Drug Free Work
Plan also allows the Chairman to increase or decrease the frequency of testing based on
the mission, the availability of resources and consistency of achieving a drug free
workplace. The Human Resources Drug Testing file had no documentation indicating a
Chairman= increase or decrease in drug testing. FLRA has an Interagency Agreement
with the Department of Interior for the drug testing of FLRA employees.

FLRA HQ Health Services are provided by the Department of Treasury and have been
considered good by FLRA employees. In addition to offering free flu shots, the
Department of Treasury Health Services also periodically offer various types of health
testing for nominal fees. They also offer physical examinations for FLRA employees.
Prior to FY 2001, approximately 6 employees took advantage of this offer each year.
Two senior FLRA employees stated they actually found out they had serious medical
problems as a result of these examinations. The FLRA did not participate in these
examinations during this past year.


                                           18
The FLRA supports reasonable accommodation of disabled employees in compliance
with the Americans with Disabilities Act of l990, the Rehabilitation Act of l973 and the
FLRA Draft Instruction, No. 3890, Providing Reasonable Accommodation for
Individuals with Disabilities. The FLRA currently has no registered disabled employees.
 In May, 2002, a final draft of FLRA Instruction No, 3890, Providing Reasonable
Accommodation for Individuals with Disabilities was issued for approval. As of July 10,
2003, it still has not been issued.

It is the responsibility of the employees to identify any disability which requires
accommodation in order for him/her to perform their essential duties. The FLRA has
made the Computer Electronic Accommodation Program (CAP)available for disabled
employees through an FY 2000 interagency agreement with the Department of Defense.

The FLRA is in compliance with the Civil Rights Act of l964 in terms of sexual equality
and treats women=s pregnancy, childbirth and related medical conditions the same as
other persons not so affected, but similar to other employees in their ability or inability
to work.

No major issues were surfaced concerning FLRA=s compliance with the Pregnancy
Discrimination Act and Family Medical Leave Act. Those employees interviewed who
had related circumstances to these regulations were satisfied with FLRA=s actions.

The FLRA grants family and temporary medical leave under justified circumstances in
compliance with the Family and Medical Leave Act of 1993. This act promotes equal
opportunity for women and men, for at least 12 months, who need to take reasonable
leave for medical reasons and/or the birth or adoption or foster care of a child. This also
applies for the care of a, spouse or parent who has a serious health condition.
Employees are required to provide, notice of their intention to take leave at least 30 days
prior to the leave. Taking such leave does not result in loss of employment or benefits
and the employee must be restored to his/her original or an equivalent position upon
return. The FLRA has had several employees taking extensive leave for medical reasons
or childbirth over the last few years. Only one employee interviewed was found to have
misused the Act=s authorized leave by using it intermittently without approval. This
employee stated she was unaware of and not told how to use the leave. This employee
paid back the FLRA for her misused leave.

There was no evidence of FLRA non compliance with peripheral safety and health
regulations defined in the Vietnam Era Veterans Readjustment Assistance Act.

There has been no consultation with the current Director, EEO concerning disabled
employees and FLRA accommodations during the last two years.

During FY 2002-2003, the FLRA paid $2250.00 for Employee Assistance Program
services from the Department of Health and Human Services. As of June 1, 2003, the
FLRA still owes $3000.00. During FY 2003, the FLRA Human Resources Division

                                             19
completed an Agency Employee Assistance Program Population Survey covering its FY
2002, 210 employees for the Federal Occupational Health component of the US Public
Health Service.

There are no records indicating any internal safety and health training was provided to
the FLRA Headquarters staff since FY 2000. The Office of General Counsel provided
CAP Program training to OGC employees at their FY 2001 OGC Training Seminar.
During FY 2000, the FLRA relayed various health screening activities being performed
by the Department of Treasury Health Annex which benefited Headquarters= employees.
 Prior to FY 2002, FLRA=s Administrative Services Division distributed monthly safety
and health newsletters to FLRA personnel. The FLRA issued a quarterly newsletter
which contained information on safety and health issues The newsletter has not been
issued over the past year and one half. No training has been provided by the Health
Annex to FLRA Headquarters.

Most of FLRA=s injuries have occurred while employees were TDY rather than on FLRA
work sites. The FLRA issues an Annual Report on Occupational Safety and Health in
compliance with OSHA .

(The FLRA OSHA FY 2000 Report stated that the FLRA had 4 employees suffering work
related injuries from FY 1997 to FY 2000). These injuries included:

      - An employee diagnosed with carpal tunnel syndrome;

      - An employee who slipped while on TDY;

      - An employee who was strained while lifting her labtop and suitcase while on
      TDY; and

      - An employee who injured her foot stepping off a curb while TDY.

The FY 2001 FLRA OSHA Report stated that:

      - two employees experienced dexterity injuries from the carpal tunnel syndrome
      while performing at their work stations.

The FY 2002 FLRA OSHA Report stated that:

      - Three employees experienced carpal tunnel syndrome.

The FY 2000- 2003 OWCP Case File indicates that as of May 27, 2003:

      - One employee had knee and ankle injury and has filed a pending claim.




                                          20
Carpel tunnel syndrome is the most common occupational health issue of FLRA
employees and is primarily caused by excessive typing and the inappropriate placement
of the computer keyboard and the lack of proper keyboard trays and ergonomic chairs.
The second most common health issue is allergies which can become more serious in
environments with poor air quality. Other health issues of FLRA employee=s which have
been caused and/or affected by the work environment are, walking ability, spinal
problems, hearing and visual and mental health problems.

The Headquarters and Regional Offices all maintain some protective equipment but the
kinds of equipment vary and are not standardized throughout the Agency. During FY
2000 - 2003, the FLRA approved the following personnel protective equipment:

      - Safety identification vests for emergency teams;
      - flashlights;
      - hard hats;
      - 4 Nextel telephones; and
      - first aid kits.

No FLRA office maintains all of this protective equipment.

Currently, all HQ sub components have first aid kits and FLRA emergency team
members have identification vests. All sub component offices do not have government
issued flashlights or hard hats. While HQ FLRA Supply Rooms has a large amount of
flashlights and batteries, hard hats and Nextel telephones, these protective items had
not yet (June 10, 2003) been distributed to Headquarter Offices. This review revealed
that two offices had extensive protective equipment. These are:

       1. Member Armendariz=s Office Manager advised staff to bring tennis shoes,
change of clothes, water, towels and snacks to keep in the office in case of an emergency.
This office also has a first aid kit and flashlight.

      2. The Atlanta Regional Office recently won a raffle which provided them with a
Terrorist Attack Kit which contains

Since the Anthrax mail scare, the FLRA Mailroom Officer has focused on the mail
received by FLRA even though it is scanned by the US Postal Service prior to its
delivery. The Mailroom Officer stated that when the mail is received, it sometimes has a
distinct chemical smell. The Officer generally removes the smell by placing the mail in
front of a fan.

The majority of supervisors interviewed who had referred their employees to the EAP
program had positive comments on the EAP=s ability to help resolve the employee=s
problem. Only two individuals interviewed stated they were disappointed with EAP
services. Most of the employees who have used EAP services felt that the EAP had more



                                            21
positive effect on employee emotional problems than physical problems (i,e. depression
vice alcoholism.)

The Inspector General review of FLRA Headquarter=s Building Security Assessment
provided by the GSA was not signed by the FLRA. The 1200 K St. building was classified
as a Level II facility which means that the facility holds between ll and 150 Federal
employees, and the facility is multi-story structure from 2,500 square feet to 80,000
square feet, with no setback from the street. A Level II facility is generally older (25
years plus,) has perimeter door locks as its primary security, and a moderate volume of
public contact and a sign in system for visitors.

The GSA Security Assessment, conducted in December, 2002 identified safety
vulnerabilities,(Unauthorized Entry, Burglary and Larceny) as well as adequate and
inadequate existing countermeasures. Because the risks were evaluated as High, the
FLRA is required to pay for the GSA implementation of countermeasures which defined
as, Electronic Access Control, an Employee ID System, Visitor ID System, and Perimeter
Lighting. The first three were to be completed prior to the FLRA move into the building.
 As of July 1, 2003, the Electronic Control and Perimiter lighting problems have been
fixed. The Employee ID and Visitor ID systems need expansion. Currently, there is no
plan to control elevator access.

Unobtainable Records

No FLRA records of safety or health hazards reported by employees during FY 2000-
2003 were located.

No records of annual workplace inspections during FY 2000-2003 were located. A
specific request to GSA had to be made during this review for a copy of the FLRA
Headquarters Building pre-occupancy safety and security check.

No records for FLRA EAP training, newsletters, promotional information has been
maintained during the last three years.

The FLRA addressed the two most recent major security/safety issues, September 11,
2001, and the Anthrax issue appropriately, even though there was no Agency policy
available. These two incidents caused FLRA senior management to focus on safety and
security policy and issue an Emergency Evacuation Plan.

FLRA Supervisors= Major Comments/Concerns

Inspector General interviews with Headquarters and Regional Office
management/supervisors revealed that FLRA managers/supervisors would like:

More specific information on what to do and where to go in case of an emergency. This
should include what to do if health and/or safety issues occur while on official travel.

                                           22
More timeliness in addressing safety vulnerabilities in the new HQ location such as
electrical problems, air quality, insufficient wall installation, inability to implement
security protection for documents stored in unlocatable areas.

One HQ supervisor stated that several staff members have asked if the FLRA could
subsidize health club fees since we no longer had one in the Headquarters building.
Many larger Federal Agencies establish fitness programs to provide employees an
avenue for physical fitness to support overall health and well being and reduce risks of
cardiovascular diseases, obesity, stress, mental depression and other types of ailments.

No supervisors or employees interviewed were informed of their suitability/background
checks. Suitability background checks are performed for all FLRA employees through
OPM. This check includes personal interviews, credit checks, and law enforcement
checks. Management checks involve employment, education and spouse checks as well.
 The results are maintained by the Administrative Services Division but are not
communicated to managers or the subject employee.

Several supervisors stated that they considered fire the most threatening safety hazard
and that, in spite of the Emergency Evacuation Plan, they still don=t know where to go.
One supervisor stated that several offices were too far from the Exit area.

Headquarter managers were most concerned about the current door lock system,
internal stairway knobs, the darkness of the elevator halls and stairwells 1/ and the
privacy/security of labor management case files and office equipment lock system.

Regional Office Directors were all positive about their building (private and Federal)
safety programs and periodic checks. All of them stated that they have not received
FLRA instructions on safety and health programs. With the exception of one, Regional
Office Directors stated they had good interaction with their Health Services
organizations and several of them actually came to the Regional Offices to provide
services such as flu shots, blood tests, and training sessions, etc.

FLRA Employees= Major Comments/Concerns

New FLRA employees are currently being provided some safety, health and security
information at their initial check in to the Agency. Some employees who were hired
during FY 2000 -2002 were not provided with such information. Most employees
interviewed felt safety and health were important to them and they needed more
information.



2/ This problem has been addressed by management as of June 30, 2003.



                                             23
Several administrative employees who have been employees by the Federal Labor
Relations Authority for more than 15 years were unaware of FLRA=s occupational safety
and health program.

One FLRA Headquarters employee was injured by an engineer (mop bucket hit her leg)
and was given Workman=s compensation leave. As a result of not being aware of the
rules of the Workman=s Compensation Act, the employee misused the leave.

Three FLRA Headquarters employees who had serious non work related health
problems stated that FLRA management accommodated their situations.

Most FLRA Headquarters employees were aware that their offices maintained first aid
kits but some were not aware of its location.

CURRENT SAFETY AND HEALTH ISSUES:

The current location of the FLRA Headquarters at 1400 K Street was reviewed for safety
compliance and was approved by the Federal Protective Service and the Government
Services Administration Washington D.C. Safety Inspectors did a walk through
inspection of the building and reported the safety level as satisfactory although several
potential high risk deficiencies were identified and required to be corrected prior to
FLRA Headquarters occupancy and to the Headquarters move. Individual office
managers have identified some safety issues such insufficient electrical outlets, air
quality, floor uneveness, and temperature controls. Most of these are being addressed.

The following safety and health concerns were brought up by FLRA employees:

HEADQUARTERS:

Headquarters stairwells are too dark and dangerous to walk on. Lighting needs to be
strengthened. Also, the internal stairwell door knobs are round and difficult for some
employees to open. (The lighting has been addressed by management)

Headquarters 3rd floor is slanted and looks like it is leaning forward, especially in the
library.

Headquarters offices require more than one electrical outlet.

Headquarters doors are very heavy and do not open easily.

Employees whose computers face windows stated that there was too much window glare
on the computer screen. Flat monitors were recommended to solve this problem.

Several Headquarters employees stated they were negatively affected by the drilling,
dusting and placement of wallpaper in the hallways during working hours.

                                             24
Atlanta Regional Office

The quality of air needs to be assessed and improved. Current air exacerbating severe
allergic reactions. (Director has Doctor verification for subject employees.) Director has
submitted request to Building Manager for duct cleaning. No response. Building
cleaners do not perform a thorough job.

Carpets are significantly dirty and the Regional Director has requested replacement of
the carpet to Director, ASD.

The Atlanta Regional Office needs strong ergonomic chairs for two employees. The
Regional Director has physician documents, verifying back and spinal problems for 2
employees.

Several Atlanta Regional Office employees have carpel tunnel and the keyboard trays
purchased specifically for these employees do not work and need to be replaced with
those of a better quality.

The Atlanta Regional Office has an extensive first aid and terrorist protection kit which
was provided by winning a building a safety raffle.

The Atlanta Regional Office manager and employees have had a significant amount of
safety training provided by their building management.

Boston Regional Office

The Boston Regional Office Director stated that he previously read and commented on
FLRA drafts of safety and health policies. His most recent training was at the OGC
Training Meeting held in Kansas City in FY 2001 where the Department of Defense
provided OGC employees information on the CAP program. Boston Regional Office has
not received any safety or health information from Human Resources for several years.

The Boston Regional Office is located in a building which is very focused on safety and
security. Employees must enter the building with a security card and occupants must
comply with key standards.

The Boston Regional Office purchased new furniture which addressed employee
computer and labtop vulnerabilities approximately a year ago and has addressed and
decreased carpel tunnel problems of a few employees. The Boston Regional Office
previously had some problems with air quality but this was corrected by the building
manager=s fixing the air conditioning system.

The Boston Regional Office employees have had no work related injuries, take
advantage of and are satisfied with their Health Services and maintain protective



                                            25
equipment which includes a first aid kit, safety masks, and bottled water. The office
does not have a flashlight.

Chicago Regional Office

The Chicago Regional Office is currently located in a private building which is heavily
focused on safety and security. The Regional Office maintains a first aid kit, has a
flashlight and has its own water service. Although the Chicago Regional Office has 2
certified CPRs, the Regional Director could not recall any other safety/health training
provided during the past few years.

The Regional Director stated he has never received any FLRA instructions dealing with
safety and health issues. The Director was aware of the Federal Drug Testing Program
but was unaware of any testing performed by the FLRA.

The Chicago Regional Office has one employee with multiple sclerosis and an office
support staff person who suffered from carpel tunnel (had surgery and is currently fine.)
 The Regional Director stated that his office furniture was old and did not support
computer or lab top typing. The Chicago Regional Office Director stated he was assured
that modular furniture would be provided when the office was relocated during the next
year. None of the Chicago Regional Offices employees are officially registered with
disabilities. Approximately 5 years ago, the Chicago Regional Office did have an
emergency with an employee who had a brain hemorrage during working hours and had
to be immediately taken to a hospital from the office by ambulance.

The Regional Director stated that his Chicago Office=s Health Services Unit has not
contacted nor provided Office employees physicals or tests for several years. He stated
that he felt this was because his staff did not previously take advantage of their offers.

Dallas Regional Office

The Dallas Regional Office Director has general knowledge of FLRA safety and health
requirements but does not recall receiving information for several years. One
administrative employee has a carpel tunnel problem with both hands and has recently
 undergone surgery. The Director stated that a few employees have allergy problems
while working in the Office and the air quality needs to be checked.

The Dallas Regional Director stated that safety is routinely checked by building
inspections, that his office maintains protective equipment which includes fire
extinguishers. Although the Director has a building Emergency Evacuation Plan, he has
been strongly requesting that the Agency develop a Continuity of Operations
(Contingency Plan)




                                            26
Denver Regional Office

The Denver Regional Director did not recall receiving any safety and health instructions
from the FLRA but did affirm that she had received some information and posters
regarding the Employee Assistance Program. The Denver Regional Office has protective
aids and cell phones to maintain contact with employees who travel to remote areas.
The Director stated that the Federal building in which the Denver Regional Office is
located, has increased its security and safety to a high level since the Oklahoma City
bombing and that OSHA air quality checks and GSA safety checks are performed
regularly. The Denver Regional Office has cypher locks on all doors.

The Denver Regional Office has four employees with health problems (hearing disorder,
breathing disorder, depression and carpel tunnel). None are officially registered as
disabled. The CAP program was used to obtain modular furniture for the employee with
carpel tunnel). The rest of the Denver Regional Office furniture is old and not conducive
to computer/labtop typing. The Regional Director recalled that only one employee had a
health emergency during work hours and this individual was taken to a nearby hospital
emergency room by ambulance.

Although the Denver Regional Office=s Health Service Unit is about a mile away, they do
come to the Denver Regional Office to provide flu shots and blood donations. Training
sessions have been provided to Denver Regional Office employees by the Employee
Assistance Program. The Regional Director stated that about a year ago, the FLRA
Human Resources Division stated that they would schedule CPR training for the Denver
Regional Office employees but this never happened. Several Denver Regional
employees are interested in basic Red Cross training as well.

San Francisco Regional Office

The Director of the San Francisco Regional Office stated that the private building in
which the office is located had excellent 24 hour security/safety, including key entrance
for the building. The San Francisco Regional Office has not received any safety or health
materials for awhile.

The San Francisco Regional Director stated that the major safety/health problem in the
San Francisco Office was the lack of ergonomic furniture. The current furniture is over
20 years old the San Francisco Regional Director hopes that when the Office=s current
lease ends and the Office moves, that new, contemporary furniture will be provided.

Over the past few years, a few of the San Francisco staff suffered carpal tunnel problems.
The Director used the Employee Assistance Program and found it helpful. He also
referred several employees to use the Employee Assistance Program and they also felt it
was helpful. The San Francisco Regional Office receives Employee Assistance Program
Information and booklets from the Department of Health and Human Services. The San



                                           27
Francisco Regional Office=s use of the CAP program was productive in addressing the
San Francisco=s employees carpal tunnel problems.

The San Francisco Regional Office maintains a first aid kit and flashlight as protective
equipment, has received extensive safety and security information from its building
managers (but none from the FLRA) and has a majority of tenured employees who are
aware of occupational safety and health issues.

Washington Regional Office

The Acting Regional Director and staff were unaware of occupational safety and health
requirements. The Acting Director recalled receiving safety and health documents
periodically at Headquarters but has not received any at the Regional Office.

Building managers frequently check the Washington Regional Office for safety.

Major problem which could affect employees= health is the high placement of labtop
keyboards on desks which makes typing difficult and can damage hands.

Supervisor and employees would benefit from updated training/information on safety
and health issues.




                                           28
INSPECTOR GENERAL COMMENTS

In order to be effective, safety and health programs must be self-sustaining programs
that are fully integrated into the daily operations of the workplace. The FLRA
Occupational Safety and Health Program policy (and Drug Free Workplace Plan) are
comprehensive and well written but program administration has been minimal and
needs to be administered more openly to protect FLRA employees.

Although most FLRA managers and employees interviewed were unaware of FLRA=s
safety and health policies (many employees went on the FLRA website and accessed the
FLRA OSHA instruction and read it for the first time prior to their Inspector General
interview,) the majority of them conveyed contemporary knowledge of safety and health
issues and were aware of what to do if these occurred in the workplace.1/

The Inspector General discussion of FLRA safety and health program accomplishments
and deficiencies with the recently hired Director of Administrative Services revealed
that this Director, ASD wants the FLRA=s safety and health program to be more
proactive and protective, affirmed that employees needed more safety and health
information, and that more comprehensive records/statistics needed to be kept. The
Director, ASD intends to issue Administrative Program Notes periodically to all FLRA
employees which will include safety and health information.

While the FLRA has increased its focus on security and safety policies, it has not yet
addressed the Continuity of Operations should a disaster occur. This is important for
the Agency as well as employees. Another important action that has not been
implemented is the conduct of an annual safety inspections of Headquarters and the
regional offices.

According to the Department of Labor in a Memorandum dated October 24, 2002,
OSHA is planning to implement a new safety and health initiative at the start of FY
2004 to replace the Federal Worker 2000 Presidential Initiative. Details of this
initiative will be provided prior to its implementation.

Occupational safety and health are more sophisticated now since the September 11
disaster, but many issues can be addressed with common sense. FLRA managers and
employees are aware of basic safety and health indicators but may not know what to do
should an incident occur. As with the majority of other FLRA administrative programs,


3/ The fact that this internal review stimulated FLRA managers and employees to
research and read safety and health related regulations supports the internal value of
Inspector General oversight activities.




                                           29
FLRA managers and staff have not been briefed on safety and health although
information has recently been provided by e-mail.

Providing a safe workplace and healthy environment to employees is an important
factor and Agency responsibility which is often minimized until a hazard occurs.
Federal agencies must help employees understand their risks for disease, obtain
preventive health services and make healthy lifestyle choices by offering programs at the
workplace. Most employees are focused on work, family and community responsibilities
and have limited outside work time to devote toward preventative safety and health
services. Providing such services to employees definitely supports occupational safety
and health services as well as human capital.

Inspector General discussions with the current Director, Human Resource Division and
recently hired Director of the Administrative Services Division validated that these line
managers were knowledgeable of OSHA requirements, had experience in
administrating OSHA programs in other agencies and had plans to increase training and
create a more detailed OSHA annual reports. The Director of ASD acknowledged her
agency-wide responsibility (HQ plus regional offices) and the need to strengthen the
OSHA program.

The predominant FLRA safety and health issue is related to the way for employees to
handle computers to avoid carpel tunnel and arthritis problems. The FLRA=s old desk
furniture does not support the correct physical use of computer key boards. This places
employees in a vulnerable position for acquiring carpel tunnel syndrome, arm, hand and
wrist muscle problems and increase hand related arthritis problems. The second major
area of employee concern is air quality. A significant amount of Headquarters and
Regional Office employees stated that their allergies became much more bothersome
during work hours.

The FLRA=s Occupational Safety and Health Program instruction is well written but is
twelve years old and needs to be updated and dispersed to all employees. The Drug
Testing Work Plan is also well written, but the FLRA program is not active. Since its
inception, only one FLRA employee has been drug tested. The Act requires Federal
Agencies to perform random drug testing on 25% of their employees. This would
amount to one FLRA employee per year. The FLRA Plan states that random testing will
be performed on employees in specifically defined sensitive positions, i.e. Presidential
appointees, Inspector General, Government car drivers. Management should at least
expand this requirement for the FLRA Security Officer, Chief Information Officer and all
Government car drivers (some Regional Offices still have Government cars.) However, it
would be more prudent and helpful for the FLRA, if all employees were included for an
annual random selection.




                                           30
Finding and Recommendations:

Finding 1: A significant amount of FLRA employees were unaware of FLRA safety and
health policies and procedures. While the OSHA and Drug Free Workplace Act can be
accessed on the FLRA website, not all relevant documents are on-line.

Recommendation 1: Add contemporary safety, health, and security information
including the FLRA Occupational Emergency Plan and a current list of FLRA policy to
the FLRA website as well as the document package given to new FLRA employees.
Ensure that all related policy and guidelines are accessible on the FLRA instruction
website and FLRA employees are notified that they can access them from the website.

Finding 2: FLRA supervisors and employees were not sufficiently knowledgeable of
OSHA requirements, and had not received training in safety and health issues and were
not aware of voluntary CPR training.

Recommendation 2: Increase Agency-wide training for FLRA safety and health
programs. Ensure that all supervisors are knowledgeable of OSHA requirements and
provide contemporary information to their staffs. Include volunteer training for CPR
and increase safety/evacuation information to include maps of areas, where to go to
ensure employee safety. Safety and Health training should include training by EAP
which has been available and not solicited by the FLRA for several years.

Finding 3: The FLRA=s Human Resource Division does not maintain statistics
regarding lost time for injuries and/or disabilities. This is an OSHA requirement and
will not require extensive resources since the FLRA is small and has very few employees
who are injured while on duty. It will also provide the information needed to provide to
the Department of Labor in the FLRA=s Annual Occupational Safety and Health
submission.

Recommendation 3: The FLRA Human Resource Division should ensure that all
OSHA statistics and records be maintained so that the FLRA is in compliance with the
OSHA requirements.

Finding 4: While the FLRA=s Drug Free Workforce Plan is detailed and identifies
sensitive positions which should be randomly selected for drug testing, the list is
insufficient. No random drug testing is being done. There is no documentation from
the Chairman stating it should not be done. The drug testing of only one individual is
not sufficient for compliance with the Drug Free Workplace Act.

Recommendation 4: FLRA should expand its definition of sensitive positions to, at
least, include Security Officers, Computer Information Officer and both senior and line
managers, and comply with its=s Drug-Free WorkPlace Plan by randomly testing at least
one person per year


                                           31
Finding 5: The interagency agreement between the FLRA and Department of Health
and Human Services (1998) for the purpose of providing FLRA employees with basic
Occupational Health Center Services includes annual site visits, the issuance of an
Agency oriented annual report, and training sessions which have not occurred.

Recommendation 5: The FLRA Executive Director and Director, Administrative
Service Division should review the Interagency Agreement with the Department of
Health and Human Services and ensure that all stated provisions are current and
addressed. (A review of all other administrative program interagency agreements
should likewise be reviewed and updated as necessary.

Finding 6: The FLRA sub-components and Regional Offices have various types of
protective equipment ranging from extensive to minimal.

Recommendation 6: The FLRA Safety Program Manager should ensure that all FLRA
sub components maintain standardized sufficient and accessible safety/protective
equipment.

Finding 7: FLRA Headquarters and Regional Offices all have current Emergency
Evacuation Plans. Some are lacking locational maps and information on specifically
where to go.

Recommendation 7: FLRA Safety Program Manager should review all Emergency
Evacuation Plans and ensure that they all contain information and maps for employees
on where to go for the different types of emergency evacuations (i.e. fires, terrorist
attack, biological attacks etc.)

Finding 8: The FLRA does not have a Continuity of Operations (Contingency) Plan
which is necessary for an emergency evacuation due to an attack which disables access
to the FLRA buildings.

Recommendation 8: FLRA management should prioritize the development of an
FLRA Continuity of Operations (Contingency) Plan.

Finding 9: Not all FLRA facilities have annual security/safety checks.

Recommendation 9: Annual FLRA facility (Headquarters and Regional Offices)
safety/security checks should be performed by building security officer or FLRA security
officer, and maintained/documented and followed up by ASD=s Security Officer.




                                          32
